@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-677

DAVE YOST AND JOSEPH DETERS,
Petitioners,
Vv.
PLANNED PARENTHOOD SOUTHWEST
OHIO REGION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GEORGIA,
ALABAMA, ALASKA, ARKANSAS, IDAHO, INDIANA, KANSAS, KENTUCKY,
LOUISIANA, MISSISSIPPI, MISSOURI, MONTANA, NEBRASKA, OKLAHOMA, SOUTH
CAROLINA, SOUTH DAKOTA, TENNESSEE, TEXAS, AND UTAH AS AMICI CURIAE
SUPPORTING PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5289 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . ,
My Commission Expires Nov 24, 2020 *

Notary Public Affiant

 

 

39132
